  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL



THE CHILD DEVELOPMENT COUNCIL OF
    ACADIANA, INC.’S, FINANCIAL
MANAGEMENT PRACTICES AND SYSTEMS
  DID NOT ALWAYS MEET FEDERAL
          REQUIREMENTS



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                        Kay L. Daly
                                                 Assistant Inspector General

                                                       September 2012
                                                        A-06-11-00031
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

The Child Development Council of Acadiana, Inc. (CDCAI), a nonprofit agency, operates a
Head Start program that serves 3- to 5-year-old children and their families at locations in
Opelousas, Louisiana, and surrounding cities. CDCAI is funded primarily through Head Start
grants. During CDCAI’s FY 2011 (February 1, 2010, through January 31, 2011), OHS provided
Head Start grant funds to CDCAI totaling $7,382,330, which included $823,200 in Recovery Act
funds. CDCAI also received funds from the U.S. Department of Agriculture.

OBJECTIVE

Our objective was to determine whether CDCAI’s financial management practices and systems
met Federal requirements.

SUMMARY OF FINDINGS

CDCAI’s financial management practices and systems did not always meet Federal
requirements. Specifically, CDCAI:

    •   claimed $1,155,646 in unallowable expenditures for the construction of a new central
        office building without ACF’s approval and did not accurately account for these
        expenditures;

    •   failed to file a Notice of Federal Interest with ACF for its central office building;

    •   improperly used the new central office building as collateral on two loans and failed to
        disclose in its 2009 and 2010 financial statements that the building was pledged as
        security for the first loan;




                                                  i
   •   claimed $852,904 in unallowable goods, services, and donations as non-Federal share;

   •   overvalued and improperly documented in-kind non-Federal share; and

   •   claimed $17,630 in unallowable expenditures that were not reasonable, allocable, and
       necessary to the overall operation of the Head Start program.

RECOMMENDATIONS

We recommend that OHS:

   •   require CDCAI to refund $1,173,276 in unallowable construction expenditures
       ($1,155,646) and unallowable operating expenditures ($17,630) to the Federal
       Government;

   •   impose special award conditions to ensure that CDCAI maintains a financial management
       system that is able to provide accurate, current, and complete disclosure of financial
       results and records;

   •   work with CDCAI to identify any remaining unallowable construction-related
       expenditures;

   •   require CDCAI to file a Notice of Federal Interest for the central office building;

   •   ensure that CDCAI does not use Federal property as collateral for a future mortgage and
       that the current audited financial statements disclose that the building was pledged as
       security for the loan;

   •   work with CDCAI to determine the amount of any shortfall in non-Federal share
       contributions related to the $852,904 in unallowable non-Federal share and the associated
       grant funds for which CDCAI would not have been eligible;

   •   ensure that goods, services, and donations that CDCAI claimed as non-Federal share are
       allowable;

   •   ensure that CDCAI values goods, services, and donations according to applicable
       requirements;

   •   ensure that CDCAI properly documents in-kind contributions; and

   •   ensure that CDCAI accounts for Head Start expenditures accurately and that the
       expenditures are allowable.



                                                ii
CHILD DEVELOPMENT COUNCIL OF ACADIANA, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CDCAI disagreed with all six findings. However,
CDCAI described corrective actions that it planned to take to address the findings. In addition,
CDCAI stated that its board of directors and policy council will carefully review all of our
recommendations and Head Start Program Performance Standards and other Federal regulations
to determine what policies and procedures need to be revised and/or updated to comply with
Federal requirements. CDCAI’s comments are included in their entirety as Appendix A.
Nothing in CDCAI’s comments caused us to change our findings or recommendations.

OFFICE OF HEAD START COMMENTS

In written comments on our draft report, OHS concurred with all of our recommendations.
OHS’s comments are included in their entirety as Appendix B.




                                              iii
                                                        TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Head Start Program ..............................................................................................1
              Child Development Council of Acadiana, Inc. ....................................................1
              Federal Requirements ..........................................................................................1
              Special Award Conditions ...................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          CONSTRUCTION OF CENTRAL OFFICE BUILDING ..............................................3
               Unapproved Construction Expenditures ..............................................................3
               Notice of Federal Interest in Real Property Not Filed .........................................4
               Improper Use of Federal Property as Collateral and Lack of Disclosure ............4

          NON-FEDERAL SHARE ...............................................................................................5
               Unallowable Non-Federal Share ..........................................................................5
               Overvalued In-Kind Contributions ......................................................................5
               Insufficient Documentation of In-Kind Contributions ........................................6

          OPERATING EXPENDITURES ....................................................................................6

          RECOMMENDATIONS .................................................................................................6

          CHILD DEVELOPMENT COUNCIL OF ACADIANA, INC., COMMENTS
           AND OFFICE OF INSPECTOR GENERAL RESPONSE...........................................7
               Made Unallowable Expenditures for the Construction of a
                New Central Office Building .............................................................................8
               Did Not File a Notice of Federal Interest in Real Property .................................8
               Improperly Used the New Central Office Building as Collateral for Two Loans
                and Did Not Disclose in Its 2009 and 2010 Financial Statements That the
                Building Was Pledged as Security for the Loan ................................................9
               Claimed Unallowable Goods, Services, and Donations as Non-Federal Share ...9
               Overvalued and Improperly Documented In-Kind Non-Federal Share ...............10
               Made Unallowable Expenditures .........................................................................10

          OFFICE OF HEAD START COMMENTS ....................................................................11



                                                                    iv
APPENDIXES

    A: CHILD DEVELOPMENT COUNCIL OF ACADIANA, INC., COMMENTS

    B: OFFICE OF HEAD START COMMENTS




                               v
                                      INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
In fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Child Development Council of Acadiana, Inc.

The Child Development Council of Acadiana, Inc. (CDCAI), a nonprofit agency, operates a
Head Start program that serves 3- to 5-year-old children and their families at locations in
Opelousas, Louisiana, and surrounding cities. CDCAI is funded primarily through Head Start
grants. During CDCAI’s FY 2011 (February 1, 2010, through January 31, 2011), OHS provided
Head Start grant funds to CDCAI totaling $7,382,330, which included $823,200 in Recovery Act
funds. CDCAI also received funds from the U.S. Department of Agriculture.

Federal Requirements

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the allowability of costs. Grantees must maintain
accounting records that are supported by source documentation and must maintain financial
systems that provide for accurate and complete reporting of grant-related financial data. For
nonprofit organizations, the provisions of 2 CFR part 230, Cost Principles for Non-Profit
Organizations (Office of Management and Budget Circular A-122), are applicable.

Special Award Conditions

Pursuant to 45 CFR § 74.14, Head Start may impose additional requirements if a grant recipient
has a history of poor performance, is not financially stable, does not have a financial
management system that meets Federal standards, has not conformed to the terms and conditions
of a previous award, or is not otherwise responsible.



                                               1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CDCAI’s financial management practices and systems
met Federal requirements.

Scope

We performed this review based on a request from OHS. We did not perform an overall
assessment of CDCAI’s internal control structure. We reviewed only those internal controls
directly related to our audit objective. Our review period was CDCAI’s FY 2011.

We performed our fieldwork at CDCAI’s administrative office in Opelousas, Louisiana.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed CDCAI’s accounting, procurement, and financial reporting procedures and
        interviewed CDCAI officials to gain an understanding of those procedures;

   •    reviewed Federal Government grant award documentation to determine CDCAI’s Head
        Start and Recovery Act funding;

   •    reviewed CDCAI’s audited financial statements for FYs 2007 through 2010;

   •    reviewed CDCAI’s general ledger, timesheets, invoices, bank reconciliations, and other
        supporting documentation for costs charged to Head Start grants;

   •    reviewed CDCAI’s property records and performed a physical inventory of property
        valued at $5,000 or more at its central office;

   •    reviewed documentation supporting CDCAI’s non-Federal share amounts for FY 2011;
        and

   •    reviewed the composition of CDCAI’s board of directors and the board meeting minutes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



                                                2
                           FINDINGS AND RECOMMENDATIONS

CDCAI’s financial management practices and systems did not always meet Federal
requirements. Specifically, CDCAI:

    •    claimed $1,155,646 in unallowable expenditures for the construction of a new central
         office building without ACF’s approval and did not accurately account for these
         expenditures;

    •    did not file, with ACF, a Notice of Federal Interest for its central office building;

    •    improperly used the new central office building as collateral on two loans and failed to
         disclose in its 2009 and 2010 financial statements that the building was pledged as
         security for the first loan;

    •    claimed $852,904 in unallowable goods, services, and donations as non-Federal share;

    •    overvalued and improperly documented in-kind non-Federal share; and

    •    claimed $17,630 in unallowable expenditures that were not reasonable, allocable, and
         necessary to the overall operation of the Head Start program.

CONSTRUCTION OF CENTRAL OFFICE BUILDING

Unapproved Construction Expenditures

Pursuant to 45 CFR § 1309.10, a grantee that proposes to use grant funds to purchase a facility
must submit a written application to the responsible HHS official. Further, pursuant to
45 CFR § 1309.12, the responsible HHS official should promptly review and make final
decisions regarding completed applications.

Federal regulations (45 CFR § 74.21 (b)) state:

        Recipients’ financial management systems shall provide for the following: (1)
        Accurate, current and complete disclosure of the financial results of each HHS-
        sponsored project or program in accordance with the reporting requirements set
        forth in § 74.52.... (2) Records that identify adequately the source and application
        of funds for HHS-sponsored activities. These records shall contain information
        pertaining to Federal awards, authorizations, obligations, unobligated balances,
        assets, outlays, income and interest.

The cost principles at 2 CFR part 230, Appendix A, section A.2.g, state that to be
allowable under an award, costs must “be adequately documented.”

CDCAI spent at least $1,155,646 in Federal grant funds to construct a new building for its
central office without written approval from ACF. The total is composed of costs for


                                                   3
constructing the new building, preparing it for occupancy, and moving into it. CDCAI had
submitted at least two applications for approval to use grant funds to construct a new building.
However, ACF provided us a copy of the letter it sent to notify CDCAI that ACF would not fund
CDCAI’s request to use Head Start funds for construction of the new building. A CDCAI board
member said that he was not aware that ACF had denied funding for the new central office
building.

In addition, CDCAI did not accurately account for construction expenditures. Rather than
include the construction costs in a construction account, CDCAI included them in other
accounts, including the following: “maintenance and repair,” “ARRA [American Recovery and
Reinvestment Act] Early Head Start expenditures for classroom supplies,” and “ARRA Early
Head Start expenditures for minor repairs.” CDCAI may also have included construction
expenditures in other accounts. Therefore, there is no assurance that all construction-related
expenditures have been identified.

Notice of Federal Interest in Real Property Not Filed

Federal regulations (45 CFR § 1309.21(a)) state that the Federal Government has an interest in
all real property and equipment acquired (purchased or constructed in whole or in part with Head
Start grant funds) or upon which major renovations (e.g., structural changes to foundations,
roofs, floors) have been undertaken with grant funds for use as a Head Start facility. Further, 45
CFR § 1309.21(d)(2) states that, except for certain modular units, “... the grantee must record the
Notice of Federal Interest in the appropriate official records for the jurisdiction where a facility is
or will be located immediately upon: purchasing a facility or land on which a facility is to be
constructed; receiving permission to use funds to continue purchase of a facility; commencing
major renovation of a facility or construction of a facility.”

By the end of our fieldwork, CDCAI had not filed a Notice of Federal Interest for its central
office building as required. Because CDCAI did not file a Notice of Federal Interest for property
that the Federal Government holds an interest in, the property could be transferred or sold to
another party without the written permission of the responsible HHS official.

Improper Use of Federal Property as Collateral and Lack of Disclosure

Federal regulations (45 CFR § 1309.21(b)) state that a grantee may not mortgage, use as
collateral, or sell or otherwise transfer to another party, facilities acquired with grant funds,
without the written permission of the responsible HHS official. In addition, the Statement of
Financial Accounting Standards No. 5(18) requires entities to disclose in their financial
statements assets pledged as security for loans.

In October 2009, CDCAI acquired a $976,000 mortgage from which it could draw down funds
until January 2011. 1 CDCAI used the newly constructed central office building as collateral
without obtaining the written permission of the responsible HHS official. CDCAI did not
disclose in its 2009 and 2010 financial statements that the building was pledged as security for
the loan.

1
    CDCAI did not draw down any funds.


                                                  4
During our fieldwork, we told CDCAI officials that we would include in our report information
about CDCAI’s improper use of its central office building as collateral. Subsequently, in May,
2011, CDCAI acquired a new mortgage for $100,000 and used these funds to pay off the
remainder of the construction costs of the central office building. Again, CDCAI used the newly
constructed central office building as collateral without written permission of the responsible
HHS official, even though it was aware that doing so would violate Head Start regulations.

NON-FEDERAL SHARE

Unallowable Non-Federal Share

Federal regulations (45 CFR § 1301.20) require grantees to provide 20 percent of the total cost of
the Head Start program through non-Federal share. Federal regulations (45 CFR § 74.23(a))
state that all cost sharing or matching contributions must be “necessary and reasonable for proper
and efficient accomplishment of project or program objectives” and “allowable under the
applicable cost principles.”

According to OHS policy issuance ACF-PI-HS-07-04, issued June 27, 2007, the costs incurred in
transporting children to and from a Head Start center are not counted as non-Federal share.

CDCAI initially met its required non-Federal share requirement. However, we found that
CDCAI claimed $852,904 2 for in-kind goods and services and cash donations that were
unallowable because they were not necessary and reasonable for accomplishing Head Start
program objectives. Local funds totaling $745,010, which CDCAI used to pay for some of the
central office building construction costs, were included in this total. The remaining $107,894 in
unallowable in-kind contributions included the parents’ supervision of their own children, prior-
period costs, and parents’ cost of transporting children to school.

Overvalued In-Kind Contributions

Federal regulations (45 CFR § 74.23(d)) state that for volunteer services to be included as
matching contributions, they must be necessary to the program. The rate should be consistent
with that paid for similar work in the labor market plus fringe benefits.

CDCAI overvalued in-kind contributions for some volunteer-consultant services. CDCAI based
the value of the services on what volunteer consultants would have been paid for performing
their regular job duties, regardless of what services they provided at CDCAI. As a result,
CDCAI overvalued its in-kind contributions for volunteer consultants who were not donating
services related to their regular job duties. We did not disallow any overvalued in-kind amounts
because CDCAI generally did not provide enough information about the services to revalue
them.




2
    Without this $852,904, CDCAI would not have met its non-Federal share requirement.


                                                         5
Insufficient Documentation of In-Kind Contributions

Federal regulations (45 CFR § 74.23(i)(1)) state: “Volunteer services shall be documented and,
to the extent feasible, supported by the same methods used by the recipient for its own
employees, including time records.”

CDCAI did not adequately document some volunteer services. CDCAI maintained in-kind
documentation with the following issues:

   •   The In-Kind report, primarily used to document the donation of services by members of
       the community, did not always describe the donated services. In addition, the
       documentation did not always show the amount of time volunteers donated.

   •   The Parent Enrichment Activities at Home form did not include descriptions of the types
       of activities parents performed. In addition, the forms were prefilled with weekly dates
       covering several months and the number of hours that parents should perform each week.
       All that the form required of the parent was a signature. These forms were used at
       several schools throughout the year.

Because the in-kind documentation was inadequate, we were unable to determine what kinds of
services were donated. Therefore, we were unable to determine the value of the contributions or
whether they were allowable and reasonable.

OPERATING EXPENDITURES

The cost principles at 2 CFR part 230, Appendix A, section A.2.a, state that to be allowable
under an award, costs must “be reasonable for the performance of the award and be allocable
thereto under these principles.” The cost principles at 2 CFR part 230, Appendix A, section A.3,
state that “a cost is reasonable if, in its nature or amount, it does not exceed that which would be
incurred by a prudent person under the circumstances prevailing at the time the decision was
made to incur the cost.” According to the cost principles, one of the factors that should be
considered in determining reasonableness is whether the cost is of a type generally recognized as
ordinary and necessary for the operation of the organization or the performance of the award.

CDCAI claimed $17,630 in unallowable costs for items that generally were not recognized as
ordinary and necessary for the performance of the award. For example, CDCAI reimbursed
parents for the cost of parent socials and for Christmas gifts that benefited individual children.
These activities and gifts fall outside the program’s purposes.

RECOMMENDATIONS

We recommend that OHS:

   •   require CDCAI to refund $1,173,276 in unallowable construction expenditures
       ($1,155,646) and unallowable operating expenditures ($17,630) to the Federal
       Government;


                                                  6
   •   impose special award conditions to ensure that CDCAI maintains a financial management
       system that is able to provide accurate, current, and complete disclosure of financial
       results and records;

   •   work with CDCAI to identify any remaining unallowable construction-related
       expenditures;

   •   require CDCAI to file a Notice of Federal Interest for the central office building;

   •   ensure that CDCAI does not use Federal property as collateral for a future mortgage and
       that the current audited financial statements disclose that the building was pledged as
       security for the loan;

   •   work with CDCAI to determine the amount of any shortfall in non-Federal share
       contributions related to the $852,904 in unallowable non-Federal share and the associated
       grant funds for which CDCAI would not have been eligible;

   •   ensure that goods, services, and donations that CDCAI claimed as non-Federal share are
       allowable;

   •   ensure that CDCAI values goods, services, and donations according to applicable
       requirements;

   •   ensure that CDCAI properly documents in-kind contributions; and

   •   ensure that CDCAI accounts for Head Start expenditures accurately and that the
       expenditures are allowable.

CHILD DEVELOPMENT COUNCIL OF ACADIANA, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CDCAI disagreed with all six findings. However,
CDCAI described corrective actions that it planned to take to address the findings. In addition,
CDCAI stated that its board of directors and policy council will carefully review all of our
recommendations and Head Start Program Performance Standards and other Federal regulations
to determine what policies and procedures need to be revised and/or updated to comply with
Federal requirements. CDCAI’s comments are summarized below and included in their entirety
as Appendix A. Nothing in CDCAI’s comments caused us to change our findings or
recommendations.




                                                7
Made Unallowable Expenditures for the Construction of a New Central Office Building

Child Development Council of Acadiana, Inc., Comments

CDCAI disagreed with our finding, explaining that it had constructed the new central office
building because of serious health and safety issues at the previous facility. CDCAI stated that
since 2003 it had submitted seven applications to ACF requesting funds to build the office
facility but that none had been approved. In addition, CDCAI stated that it had never received a
letter from ACF denying the funding request and that we had refused to give CDCAI a copy of a
letter we had that denied funding. CDCAI said that it had submitted a proposal in 2011 asking
for retroactive approval for funds that were used. Finally, CDCAI stated that it would never
again build a facility using Federal dollars unless prior approval was granted.

CDCAI stated that its accounting system allows for a satisfactory audit trail for expenditures and
that it had properly accounted for all funds used to construct the building. CDCAI also stated
that officials made adjusting entries in its general journals to accurately account for funds.
CDCAI stated that our audit and past independent audits of CDCAI support that its expenditures
were allowable and accounted for properly.

Office of Inspector General Response

Although CDCAI stated that it did not receive a letter denying Federal funding for the new
building, it admitted that it did not have prior approval to construct the building as required by
regulations. During our field work, we shared the copy of the denial letter we had with the Head
Start director and allowed the director to make a copy.

CDCAI did not accurately account for construction expenditures. Rather than include the
construction costs in a construction account, CDCAI included them in other accounts, including
a repairs and maintenance account and an account for classroom supplies. At the time of our
review, CDCAI had not made adjusting entries in its general journals to accurately account for
construction expenditures.

Did Not File a Notice of Federal Interest in Real Property

Child Development Council of Acadiana, Inc., Comments

CDCAI disagreed with our finding, stating that it will file a Notice of Federal Interest with ACF
when OHS approves the use of Federal funds.

Office of Inspector General Response

Because CDCAI used Federal funds to pay for the construction of the new central office
building, it was required to file a Notice of Federal Interest to ensure that the Federal
Government’s interest in the building was protected.




                                                8
Improperly Used the New Central Office Building as Collateral for Two Loans and Did Not
Disclose in Its 2009 and 2010 Financial Statements That the Building Was Pledged as
Security for the Loan

Child Development Council of Acadiana, Inc., Comments

CDCAI disagreed with our finding, stating that the $976,000 loan was not disclosed in the
financial statements for 2009 and 2010 because funds from the loan were not used. CDCAI
stated that it cancelled its letter of credit at the request of OIG auditors. Further, CDCAI stated
that the current $100,000 loan was negotiated in response to our questions about how the balance
owed on the building was going to be paid.

Office of Inspector General Response

CDCAI did not address the fact that it used the newly constructed central office building as
collateral on loans without obtaining the written permission of the responsible HHS official.
Although CDCAI had not drawn down any funds on the $976,000 loan, the loan represented a
significant potential liability for CDCAI and should have been disclosed in its financial
statements.

We never requested that CDCAI cancel its $976,000 letter of credit. Instead, we asked whether
any of the funds had been accessed to pay for the remaining balance owed on the building and
other building expenditures and were told that the loan had been cancelled. CDCAI provided a
letter showing that it had cancelled the $976,000 loan in January 2011 and loan documents that
showed it had obtained a loan of $100,000 in May 2011. CDCAI used the newly constructed
central office building as collateral on both loans without obtaining the required permission.

Claimed Unallowable Goods, Services, and Donations as Non-Federal Share

Child Development Council of Acadiana, Inc., Comments

CDCAI disagreed with our finding, stating that the $745,010 in local funds used to pay for the
new central office building was properly documented and necessary. CDCAI further stated that
the remaining $107,894 was allowable because parents supervised not only their own children
but also other children.

Office of Inspector General Response

CDCAI did not have approval for the construction of the new central office building; therefore,
the $745,010 in local funds that was used to pay for some of the construction costs was not
allowable as non-Federal share.

CDCAI claimed $107,894 as non-Federal share for parents’ supervision of their own children,
prior-period costs, and parents’ cost of transporting children to school. We understand the role
that parents play in the program, including assisting with supervision, but the costs for these
activities are not allowable costs. For example, while graduation is an acceptable activity under


                                                 9
the Head Start program, Head Start grant funds may not be used to cover any of its costs, and
such activities cannot be claimed as non-Federal share.

Overvalued and Improperly Documented In-Kind Non-Federal Share

Child Development Council of Acadiana, Inc., Comments

CDCAI disagreed with our finding, stating that volunteer consultants were performing their
regular job duties when in Head Start centers. In addition, CDCAI stated that it developed in-
kind activities based on Head Start Program Performance Standards and that its forms
documented those activities. CDCAI stated that it is currently reviewing those forms to ensure
that policies and procedures give specific information on valuation of volunteer and in-kind
donations. CDCAI also stated that it will be providing training on completing forms and
evaluating volunteer and in-kind contributions.

Office of Inspector General Response

CDCAI officials told us during our audit that they based the value of the services on what
volunteer consultants would have been paid for performing their regular job duties, regardless of
what services they provided at CDCAI. When reviewing volunteer consultant services, we
identified instances in which some of the consultants were not performing their regular job
duties, but performed services that CDCAI had valued at a rate consistent with what the
volunteer consultants were probably paid for performing their regular job duties. Additionally,
according to 45 CFR § 74.23(a)(1), to be accepted, all cost sharing or matching contributions
must be verifiable in recipients’ records. CDCAI’s records should have contained sufficient
evidence to determine what service was donated, the basis for the valuation of the service, and
the amount of time that was donated.

Made Unallowable Expenditures

Child Development Council of Acadiana, Inc., Comments

CDCAI disagreed with our finding, stating that the expenditures were allowable and necessary
and that the CDCAI staff was working with the parents to ensure active involvement and
participation. CDCAI also stated that the gifts and other items purchased for the children could
be used in the classrooms. CDCAI added that it will request written guidance from the Dallas
Regional Office.

Office of Inspector General Response

The expenditures in question were for items that generally are not recognized as ordinary and
necessary for the performance of the award, including the costs for parent socials and gifts that
benefited individual children. While parents’ involvement and participation in the Head Start
program are critical, we were not provided with any information about how these parent socials
benefitted the Head Start program. In addition, while the gifts could be used in the classroom,
we were told during our audit that the gifts were for individual children. These activities and
gifts fall outside the program’s purposes.


                                                10
OFFICE OF HEAD START COMMENTS

In written comments on our draft report, OHS concurred with all of our recommendations.
OHS’s comments are included in their entirety as Appendix B.




                                             11
APPENDIXES
                                                                                                             Page 10f22


APPENDIX A: CHILD DEVELOPMENT COUNCIL OF ACADIANA, INC., 

                       COMMENTS


     CH I LD D EVE L O PM E NT C O UN C IL O F A CAD I A N A, IN C .

                                             &/ '-:i",nJ,,//    ,14'",;;h
                                             ?Co pI;; cf7c"ac! C"'91Cf-,}(-/ ~(oJ1l'a In
                                                                           P_   o.   ORAWER 910
                                                                       OPELOUSAS. LA 70511-0910

                                                               1331)   9~t·96S9      • FAX (337) 942--9875


    June 14,2012



    Office of Audit Services, Region VI
    Attn: Ms. Patricia Wheeler, Regional Inspector General
          For Audit Services
    1100 Commerce StreCl, Room 632
    DaJlas, TX 75242

    RE:    Rellor! NUlllber - A-06-11-00031

    Dear Ms. Wheeler:

            Enclosed you will lind Child Development Council of Acadiana, Inc., responses to the
    Office of Audit Services, Region VI - Draft Report IIA-06- 11 -00031 ,

           CDCAl's Board of Directors does not cortCUr with any o hhe six (6) findings contained in
    the OIG Report The details, Clq)lanations, and rebullals for the Board's nonconcurrence are
    included in the responses following each orthe six (6) findings.

                                                Sincerely,


                                              C~~A.
                                                Clifton Lemelle. Sr.
                                                President
                                   Page 20f22




  Child Development Council of 

         Acadiana, Inc. 


          Responses To 


    Office of Inspector General 

Office of Audit Services, Region VI 



  Draft Report #A-06-11-00031 

                                                                                                          Page 30f22




I.      FI1\'DINC

        Clai med S 1, 155,646 in u "allowa ble ex penditures for t he co nst r uctio n o f a lIew
        central offi ce building without ACF' s approval aud did not accurately ac(ounl for
        t h e~ expenditures;


I.      RESPONSE-- (NONCONCURRENCI:)

The working defInitions lor expenditures being aUowable and accountable are that they are ( I )
allocable. reasonable, and necessary; and, (2) the grantee's aCoowlting system allows and permits
a satisfactory aud it trai lkJT those expenditures _ This OIG's audit, and a ll priof indcp<.:ndent audits
conducted o(COCAl, actually support that our agency's expenditures oo~lied with those
dclinitions. Also, all funds received by COCAI for Head Start and Early Head Start Programs
were spent entirely for Head Stan and Early Head SIan Program purposes - within the grantee's
oOidal servicc area and on bdmlf0 1: and tor the bendits of, the cnrolk-J children, the ir parcnts,
the grantee's stall' and other allowable and accountable purposes_

CDCAI has submitted seven (7) One Time Applications requesting fil11ds to build an office
facility. Agency began submitting applications in 2003 . The applications submitted in 2003 and
2004 were submiucd b('ClIuse ofbuikling becoming ha:,:ardo us to the health of~1a tl: children,
liullilies and others vis iting fac ility. In 2005 emergency applicatio:r; were submitted after
Hurricane Rita's high winds and rain caused extensive damage to the building. I3egulll.i..ng
Septerr.her 2005, September, 2006, July 2007, October 2008 and October 2009, e\l"lergency
applications werc submiued _

The llicility housed the central otllce stall' and was also used by the children/parents for health
screenings, social ization activities, and parent mt:etings. The facility was 75 plus years old and
had multiple factors that posed serious ri sks to the healt h, safety and well being of all persons
using this 1acility_

The building had multiple health and salety issues prior to HUlTicane Rita. TIlese health and
safety issues were made even mure so:rious after the mofwa~ struck by high wind and rain. On
Septcmber 24, 2005, HUlTicanc Rita hit in the Opelousas area bringing high winds and heavy rain
which caused the roof to cave in on the facility. Water filled the building and ca used extensive
water damage to the entire facility. The water was pumped out or the building; bowever, the
carpel began to smell - mildew forme<! and Uloid devdopoo thro ughout the building - the entire
buildin g became a health ha/;nd.

In September 4,2008 Hurricane Gustav eausoo additional problems and more water due to the
damaged roof continued to leak into the building.

Each time there was rain, addit ional water damagc occurred aud all ofthc supplic-s and cquipmcnt
had to be moved to an area ill the building that oftercd protection and security.

Mold-mildew and tbe awful ~TIld l cuntinued to exist. [)eudurizefl; WCTe constanl ly pu t
thro ughoUl the building to mask the ~md l, each time pCTl:iIJllS cntcn.."li the door, they cu nmlC nkd
on the mold-mildew smell.
                                                - I­
                                                                                                       Page 40f22




011 OetOMer 12, 200711 study was completed hy Michael LcBasand As~ocialcs, Inc., to
detenllinc wbetiler there were health risk factors. The study cOllllnned tlml there WCfC indeerl
measurable and serious health risk !helOrs.

On Scptemoc'r 13, 2008 Hurricane Ike added to the alrcuJy s.:rious problems. The landlord
attempted to repair the roof Each time one leak was repaired, three ot hers flmncd elsewhere _

October 30, 2008, another emerg.::ncy pro p\l.~;!l was submitted 10 the Regional Olliee with a copy
of the study do ne by Mic hael LeBas ;md Associates, Inc.

Hu rricane Katrina (August 29, 200S) was devastating to SoUlh East Louisiullll and within 11 month
Hurricane Rita ( September 24, 2005) hillhe 51. Landry Parish a-eas. AU eyes were on the New
Orleans area and wh'::11 Ril<l hit St. Landry ]'arish very [jl1le allelltlon was given to OUT Ileeds tllr
financial assistance.

Three persons hOllsed in this building have been diagnosed with cancer. The period of those
diagnosis were Novcrrhcr, 2007, Jallnary, 2009 and May, 201 1

Four (4) stall' persons housed in this oBicc arc having serious hcahh problems with sinus ­
breatbing - skin rashes.

Every Monday Imming upon arrival at the building, there wa~ tIc smell ofskwlk having been in
the building. Several snakes were killed in this building and rat traps and poison was constant ly
(aid out to catch these.

SI. Landry Pari~h is one ofthe ponrest pari~he~ ill the State ofL<!ui~iana . No one agency here has
money to give another and all of us are sceking the samc do llars.

Since none of our En"k."'fgency Applications were approved and no one from the Regional Ofiice
who was working with relief etlons and awarding money lor buikiings after the Hurricanes would
make a visit to ~cc and verify our nccd for assi~1anee, we submilloo five emergency applications
with pictures displaying the damage to the building - the mold - :he mildew and the tennites and
other thi.ngs that were visible thro ughout the building.

T he stalT-fami lje~-Board and community residents began raising muney to hel p con~truct a
facility. Beginning August of2003 through JWle 201 I, the agency was able to raise $700,000
over a period of time to he lp construct this much needed lacility.

As funds were raised beginning 2003, if there were repairs needed to centers for which the federal
do llar.; were not ava ilable to pay, the grantee wo uld usc locally raised funds to pay the cos\.

The building would have cost much less had the agency been abl~ to build soon after Hurricane
Rita beiore new huilding codes were put into efiecl. The agency was boping to pay aOOut a
million dollars lor a new facilit y.

When tile agency let out a bid sheet on January 10, 2005 lor tilis facili ty, the bid was
$2,500,000.00. The nJOney we had could !lot pay the full C{)~t of the facility.
                                               - 2­
                                                                                                          Page 50f22




The Board and siall'asked the lITchitcct and the conllany submitting the bid tn cui back on the
size ofthe building and other items to reduce the cost. The cost to cOllstrucllhis building was
reduced on SeptenDef 2, 2009, from $2,500,000.00 to $1 ,700,000.00. AJ; of February 10,2011
C DCA! has contributed in i:xces.~ 0($800,000.00 \0 construction cost-purchased the land und got
persons, contractors and others to provide free services.

SUITAIJ,U; FACl I.ITI ES

A search cnmminee looked for eight yean; (Septemh.::r 2000 through 2008) for a facility in the
arca \0 rent or lease. All buildings had similar problems as the or.c being leased. All buildings
were old grocery stores-fumilure stores, etc., that had been vacant for years.

This facility was built {Jul of di:~'Per~tinn and Ibr for Ihe bealth, $a l~ty and wcll being of childrcn,
families and the ten slaffpersons who were housed on a full time basis in this facility. A third
party verification survey cumpleted by a licensed appraisal was submitted to the Regiunal Ot1i.ee
verifying that no snit able filcility was available for rent or lease in the area. Date copy ofappraisal
was ~"Ubmitted to Ms. PeMY Young at Regional O llice was April 26, 2011

R)<;SllLTS OF STAFF HEiNG HOUSED IN ONSAn: - UNHEALTHY FACILITY

To date three of the persons who were full lime employees and housed in this fhcility have been
diagnosed with cancer. Two have had trcatm.::Tl\-Qne had surgery and onc is current ly in
treatment. All three arc still seeing doctors on a regular basis.

Through our wrinen emergency applications submined we tried to i1l1Jress upon ACF Ofticials
our concerns of the three o f ten staf]" perxons having cancer, but evcn though we were alanncd
AC f did not respond about the thirty percent cancer occurrencc and or other po~ible long tenn
hcahh risks that this environment posed to Sluff, children, parent and others who frequented this
facility.

Envloyccs who had breathing      problem~   continue to have these breathing problems.

OTIIER PERSONS EXPOSED TO n EAL Til RISK FACTORS

Persons entering the building would always commeni about Ihc        ~:nc1l   and odor and would soon
lcave the building.

DECISION TO NOT CONTINUE IIEA LTII RISK OF CHILDREN

In 2009 a d(..'Cision was made not to have children in the building   becalL~e   of fear for health and
safety reasons.




                                                  - 3­
                                                                                                                        Page 60f22




A SSISTA NCt:      R.~Q U};STE D     SEVEN '1'11\1£8 FRO;\I Rfo.: C.IONAL O FFI CE

The Program Specialist from the Regional omce would suhmit CDCAI oni! time emergency
app[jcalions tilT funding; however, no wnllcn rc~ponse was received trorn any responsible H!-IS
Ofticial.

The Program Sp.:cialisls had     vi~it.:d   (Jur agency and knew ( j f our needs and pleaded for help on
OUf bcba([


WORRVI NG AHO UT I'UTURE LlAIULITV AG t:NCV CO UL)) FAC E

Current ly the Board ()f Oirl:!1:tOfli are hoping that no (JIlt:   alh:mpl~   to SI::1::k   danlOlge.~   for h;:a1l.h
issues that rrnly be conlrihuloo \0 their being housed in this lacililY. We fed thai based upon our
continued efiorts io seek the means to improve the work environment and ACF's OfllciaIs l1ck of
willingness 10 assist us they are also legally culpable.

A LI , SERVI C ES PROVIDfo.:n

From September 20 I 0 through Ju ly of 20 12 all services were provided satisfactorily to the 917
chiJdren and their lumilies and full enrollment W8S tTIlIintainoo throughout the entire enmllment
period.

F UT URJ:: USf: OF IIAC ILITY

There 8re llO ~ uitable lucilities avaiJahle in this 8re8 for usc by the Gmntee 10 house the Agency's
administrativc operatioll. Therefore, if Grantee is required to pay a ll funds baek, the building will
be owned by the Grantcc. There will be no need for the Grantee 10 file Notice ofIntcrcst Federal
Form.

PROGRAM SPEC IALI ST ACTIO N

The Regional Ofiice Program Specialist who pleaded COCA! case from 2003 through 2007 tor
funds needed to build an oBice racility is still employed at the Regional Oilice and can attest to his
action~ on CiJCA I's helmlr


In addition - Grantee I·lead Start Director asked orG aud itors to visit the o ld (still vaeant) oflice
building - they declined the request. This would have given them a better understanding ofjust
how in peri l we were with this lucilit y.

LJ:;rn: R THAT       AG~~NC Y I)[])     N{rl' R":CE IVt:

The letter that OIG auditors shared with the COCA! persolmel during their invest igation process
denying the request tor funding ha~ never been received by the CDCAI Agency. The auditors let
the Director read the leiter, but refused to give her a copy of the lener. As correspondence is
received by C OCA! it is stamped with a date stamp and initialed by the person who received the
correspondence. [n reviewing the hooks where all correspondence is filed, the Agency has no
such Jeller on file .


                                                      - 4­
                                                                                                         Page 70f22




MAN A GEMENT O F HOLLARS

COCAI was able to build this faci lity hecalL~e oflhe grantee's extreme liscal austerity measures
thalll llowcd cost savings, without sacrificing required services 10 children and their familics_

It is our sincere be~erthat our action provided the best and safest envirolllllelllior the stalflO
work, childr.:n to receive services and families to participate in training activities to best prepare
for their children's future .

The Regional Office Persomlel have always said that appUcations submitted requesting funds due
to health and salety reason would he given careful consideration and priority I()f funding.

CDCA! submitted seven (7) one-lime applications requesting fwxls to build this lacility - we
could only conclude that the responsib le HHS olJ:jcials who made those decisions did nO! care
about the health, safety and well being ofchildren, staH"and lilmi ~ es in S1. Landry Parish. We
could only conclude that any reasonable per~on wou ld have shown more concern lor a healthy
cllvirollllCnt.

ArI'AC II I\ U;NT I - )<:'-MA I L RI<:CEfV)<;J) FROM REGIONAL OFFICI<: PROGRAM
SI' ECIALIST" DEAt" CAMI'RELL, DATED MONDAY, J ULY 30, 2007. GIVING At"
Il l'DAn: ON O N ~: TIM .: SUPPLt;MI<:NTAL A PI' U C AT IQ NS SUIIMrnED TO
REGIO NA l . (WI'IC E

This document gives inJonnalion on bottom of Page I and top of Page 2 tor funds requested to
construct this ollie..: - the docum.:nt also high lights the condition of the building and the health
risk factors.

This e-mail was sem to all three Region.al Program Managers, Susan Johnston, George Campbell
and Carholl Reid with a carbon copy to Ray Bi.~hop, Debra Drake, Dean Campbell, Kinix:r1y,
Cha lk, Alfredo Huerta, Lillioanna Ferrell, Janice PruilL, Michclle Helmke, and Mike Arredondo.
The e-mail was sent from Peggy Young, who is the Grant Analyst for CDCAI. Therefore a Uwere
aware ofCDCAI desperate ne.."'<i for fimllleia l assistance ..

CDCAJ ' S REQ UEST FOR RESOLVING CONSTRUCTION ISSUES

On April 12, 20 I 1, tbc Board of Directors submitted a proposal to the Dallas Regional Ofticc
asking tor retroactive approva l tOf fimds used to COllStruct tilcility.

On Wednesday, April 20, 20 I I, Attachrocnt 2 from the Graul Analyst was receivcd asking for
additional infonnation on the Retroactive Application submitted. This intormation was sellt to the
Grant Analyst, Peggy Young on Tuesday, Apri l 26, 20 II .

On May 13 , 20 11, a letter wa,> reccivL'Ci ITom the Acting Regional Program Manager, Debra
Drake, denying the request for filllding.

On June 6, 20 I I, the Board of Directorn discussed at a meeting 3[] maners pertaining to faci lities
and lund~ \U pay tor any repairs.


                                                  - 5­
                                                                                                          Page 80f22




COCAI shuU never again build a tllCility using federa l do Uars unless prior approval has been
granted.

The Board has always received copic~ of correspondence Irom f\ll1rling sources, however, the
Board now reviews and discuss correspondence in meetings. On JWIC 6, 2011, Board members
and Policy Council members - parents, along with st:lITdid an in-dept review orille Anllual SeU'
A~~essrro:nl. During this disc\Cisiull health and .'I<ItelY issues were the major topic and any health
ri~k factors that may exist tllllt needed inunediatc attcntiolL


The conclusion oflhis discussion was that with the move into tile omce· aU lucilities meet health
approval - the t:nvirunlllents an: sale and free of any health risk iacturs. There are no major
rt:pairs needed at any tacility. As minOT repairs are neoooo they are done, and unsafe ~upp l ies
andlor equipment arc innncdiatdy remov<:d.

Board alw requestoo that they be i.nfomlCrl inunediateiy if Director and/or stall"leel that Agency
cannot c{)mply with regulations or provide services a.~ required.

The ScU" AslOCs~nlCnl also assured Board of Director.; and Policy COWleil that fwilled enrollment
had been maimauloo the entire school year ~llld that all required services had been provide<!.

Parents who wen: preSt:nt could al1e~t to services provided and        center~   being operational with all
neerlcd and necessary supplies, materials and equiplllCnt.

C DCA I REQUEST FROi\1 OFFICE O F H EAD START

The Board is requesting (Wednesday, June 13 , 20 12) retroactive approval or forgivencss, tor
cited fiscal expenditures which arc allowable - except for not meeting "prior approval"
stipulations.

We as a Board lake OUf ro les and responsihilities very   ~rious l y   and have worked faithfully to
ensure that a quality program of service is provided.

All fimds are properly accounted for and the health and salety ofchildren, staH: families and
visitm~ are no longer being put at risk since the huilding in queslion was COlTlliC1OO and occupicd.
We have had many sleepless nights worrying aboutlhis situation and this audit report.

During the last ten years, our Agency has had three federal on-site reviews and all reviews
conl"inned CDCAI"s prudent management of finances and there were no findings reported in
iinaneia l management except filr the Ia~t audit that wa.~ conducted hy an independenl auditor.

        Dates of Triennial Reviews
               January 24-29, 2010
               March 26-3 1, 2006
               March] I - April 4, 200]




                                                  - 6­
                                                                                                             Page 90f22




ACCURAn : ACCOUNTlj' iG OF FUNDS

All funds have been accurately accounted for through adjusting eniries havi.ng been made in the
general joumaLs. Proposals submitted to the Regional omce on April 12, 20 11 (page 5) ~md
resubmitted on Jl!lluary 12, 20[ 2 give IOlallimount uflunds (page 6) paid lor the huildiug­
federal-local and balance due on building.

CORRECTlY!: ACTION

C DCA! wi ll ensure that a ll records are identified adequately as cuncnt and con1Jlcte disclosure of
financial statements in accordance with the reporting requiremCIlts as sct forth in § 74.52.

2.      FL~Dh"G


        Fai k>d to lIle a Notice or Fed eral Interest w ith ACF for its central ofl'ice b uildin g;

2.     RESPONSE- (1\,' ONCONCURRENCE)

The Federal Interest Fonn was tilled out On April 12, 20 11 and CDC AI is eagerly waiting to file
tonn as soon as OUlce of Head Start gives approval or fInal disapproval for use of limds or tile
OK to tile fonn.

IfO B S disapproves of federal   fund~   USed, then C DC Al wi ll he the sole O""'!lee

No detenuination Ilas been made about the ownership of this fadity.

C DCAI has in excess (JfSROO,ODO.OO invested in this building in addition to local funds used to
purchase land.

The land Oil which the building. was constructed was purchased in 2004 with         nOll   iederal dollars
and therefure belongs to COCA!.

Our view is lhat if HHS disapproves of Federal funds used, that sole ownership would belo ng to
CDCAl.

CORRF:CTI VF. AC T ION

NOlice ofFe<ieral Interest Foml will be     moo with the Federal Goverumclll upon approval tor use
of federal fWlds.




                                                    - 7­
                                                                                                   Page 10 of22




3.      FI N DING

        Improperly used the new central office building as collateral on two loans and failed
        to disclose ill it 2009 a nd 201 0 liulluciai state ments t hal lhe building was pled ged as
        sec urity for t he first 10 1111 ;

3.      RESPONSE- (NONCONCURRENCE)

T he loan was o btainool o ensure COllstruction o f the bui lding to get II sale-work environment for
sta ll' and safe facility tor children an d lamilics to participate in program activities.

COCA! took responsibi(jty 10 acquire funds 10 construct II facility for hea lt h safety and well being
o f cl1l'loyees, children, families and all ot hers using this [.1cility.

The loan was set up bu t was nO! disclosed ill the financial statement lor 2009 mxl 20 I 0 because
no fu nds were dra wn down; therefore, C DCA] had no liability concerning this loan.

ATTAC HMENT 2 - E-MAIL SENT BY O IG AUDITO RS AS KING FO R A LEITER
STATI NG T HE: S976,OOO LOA N HAD BEEN CANCf:I .U :D_

A"ITAC HMENT 3 - u~rn: R I-ROM BAN K SENT TO OIG AUDITOR STATI NG THAT
TilE $976.000 LO AN IlAD BEEN CM'CELLED

                                              W1til all issues and cOllcems had heen wo rked oul. An
                                              OIG Auditor o n Seplember I, 20 I I, wanting proo r


THE LOAN- WAS C ANCE LLED AT THE BANK

OIG Auditors asked lor a copy or the loan papers and was given these papers and the letter
verirying that no rund~ approved have heen u:;ed.

T his luan was o hlained to ass ist with constructing the o llicc huilding and since COCA I did not
know whet her or not the funds would be needed - Ihe loan was not C<1ncelled, mxl the LeIter or
Credit sbows tbat no runds bad been used.

T he Lett(.1" u r Crooit was cancelled at the request o rOIG Auditors _

No funds were ever drown down from this loan.

In lurther discussiun wilh O IG Aud ilm, ~ she wanted 10 knuw ho w C DCAI was
going 10 pay the ha lance - Ihe $1OO,OOO~egolialed 10 veri ry ho w ha lance on huilding
was going to be paid.

O IG Aud il{Jr, ~ wanted a copy or lhis luan agreen)l<nl. Thi~ luan agn::en:..::nt w a."
obtained to gj~IG Auditor.


                                                 -8­
                                                                                                             Page 11 of22




CORRECTlvt~        ACT ION

CurrentiyeDCAl is making a monthly payment with non-tcderaJ dollars Oil the $ 100,000 loan
balance on the building. The monthly nOle is $ 1, I 02.09. This loan has been disclosed in ihe
financial Slalcrnent since money was dra wll do wn.

DISCUSSION WITII REGIONAL OFFICE

During the week of May 2 - 4, 20 II , CDCAI Program Director, Barhara Pickney and Finance
Specialist, Shirley Eaglin, attcnded an OHS C luster Meeting in West Minister, Colorado and
during thaI conference - the CDCAl Representatives mel with A~ting Regional Program
Manager, Debra Drake and another Program Manager, George Campbell to di~uss OIG's audit
and issues with construction ofbuildillg and payofrofbaiallce on buildi.ng. CDCAl persons were
to ld to not usc add itional federa l dollars tor payo1Tu fbuilding and to wait unti l the O IG Repurt is
issued. COCAI Director to ld regional reps tbat she wanted to withdraw her 403B Retirement
Fund and pay the balance due on the building. She was advised by both Regional reps to not use
personal money to pay olrbuilding.

CDCAI wi ll continue to pay this loan Ulllil paid utT with non-federal fund~.

Should the Oftice of Head SlartiRegional Office give pennission to use federal do llars 10 pay
balance ofloan - COCAI only then will use federal dollars to pay loan..

4.      }<'INDING

        Claimed 8852,904 in unallowable goods, services, and donlltions                 liS   non-Fedcrlll
        shllre;

4.      RESPONSf,:- (NONCONCURRENC f:)

The working definitions !<Ir expenditures being allu wabl e and au;ountable are that they ace (1)
allocable, reasonable, and necessary; and, (2) the grantee"s accOLlllti ng system allows and P(.Tmits
a satislaciory audit tra il lor those expenditures. TItis OIG"s audit, and a Uprior independent audits
conducted of CDCAI, actually support that our agency"s expenditures cotllllied with those
definitions. Also, all funds ceceived by C D<:::AI for Head Start and Earl y Head Start Prugrams
were SpCllt elltircly for I'lead Start aud Early Head Start Program purposes - within the grantee"s
ollicial service area and on behalf o l~ and for the benefits u l: the cnrolk-J children, their parents,
the grantee"s stafr and other allowab le and accoumable purposes.

The S745,0 10 was local Ilmd money that was      u~d     lor payment   ()II   ullice faci li ty and was properl y
doewm~uted .


C DCAI fee ls that the S745,0 10 of nOIl-teJeral for in-kind was necessary because without all ofi1ce
C OCA1 cannot or could not have carried o ut all admiuistrative activitics that must be done IU
operate a Head Start-Early Head Start Program The staff would have eOlltinued to be housed in
an unsafe - un.heahhy - hazardous environlllcnt - putting their lives at risk.


                                                  - 9­
                                                                                                        Page 12 of22




Once Ih~ $745,010 was     \L~ed   10 pay on the building, it was then properlyoocumenled as In-Kind
contributiolL

CDCAI fee ls the remaining S I01,894 is a Uowable because parents supervised their children as
well a.~ other children for field trips, classroom activities, playgro'.lIld activitics_ Parents arc
always supervising more than one child. Depending on the activity 10 ensure having adequate
supervision parents may supervise two or three children - but never afC they supervising one child.
eDCAl could have their Class A Child Care License revokc<i ifthey fuiled 10 have adequate
supervision of children at any funcliuIl_

CORR ECTIVE ACTION

CDCAl has developed new fonus uud additional instruction to ensure that adequate
documentatiun o f all vn]wlteer and in-kind donations arc properly documented lI.-'i stated by the
DIG Auditors - but not questioned by Federnl Review Teams or Independent Auditors.

Statfhave been given training on volunteer regulntions and aUowable in-kind. Parents
transporting children arc no longer an allowab le in-kind contribution.

S.      I'I NDING

        Oven'alu ed and improperly documcntcd in-kind non-Fcclcm l share; and

S.      RESPONSE- (NONC()NCURRE NO:)

Volunteer con~llhants are perfooning their n:gular job duties when in Head Start Centen;:

                Examples: 	       Dentist is speaking to children ahl'ntthe importance of good dental
                                  hygiene - instead of being dOlle at the otllce. Dentists come to
                                  centers and visit each c1as~Toom.

                                  Parents Of conmlllnity persons working on p layground - their time
                                  is va lued ai Agency rate for jan.itorial-maintenance work.

                                  l.ibrarian - visits centers to do story time. The ratt: o f voluntt:er or
                                  i.n-kind is va lued at rate COCA! allows for a consultant based 011
                                  degree individual must have to ho ld position as librarian.

According to C DCAI calculations Agt:ncy met its mm-iederal shart:.

1304.40 Head Start Perfonnanee Stalldards discussed aU types of activities that grantees must
e1lSUre thm parents be involved in with their children.

In kl~ping with these regulations Pu licy COlliJcil, parents and ~1alr developed activities that
parents wantcd to do with their children. VolWltecr and in-kind (onns were developed based on
these activities. The fomlS were being used to document activities that parents were doillg.


                                                   - 10­
                                                                                                      Page 13 of22




Each time auditors or reviewers visit COCA!, ifquestions and/orconmlCnls are made about
documentation of in-kind - based on these comments, questions, suggestions, teed b.1ck given on
improving 1(Jr1TL~ ( I f making change - CDCAllllake suggested Of recomrnenued changes 10 fonn.~
being used.

Fanns currem ly being used are revised or updated as recommendations are made.

CORRECTI\'F. ACTION

CDCAI is currently reviewing lonns and written descriptions 10 ~nsure that policies and
procedures give specillc itllonnatioll on valuation of vo lumeer mxl ill-kind donations.

Stalfwill be provided training 011 completing fomlS and how to correctly do evaluation of
volunteer and in-kind contrihutions.

6.      FIN DING

        Claimt:<! $ 17,360 in unall()wahle expenditures tha I wen: not reasonable, allocable, and
        neec,~sary to uvera ll uperation of the 1·lead Start Program.


6.      RES]'ONSE-- (NONCONCURRENCE)

Tbe working definitiolls for expenditures being aUowable and accountable arc that they arc (I )
allocable, reasonable, and m:cessary; and, (2) the grantee's aCCowlting system allows and permits
a satisfuetory audit tra il lor those expenditures. 111is OIG's audit, and all prior independeUl audits
conducted of CDC AI, actually ~upport that our agency's ex penditure!; cOlllllied with those
ddinitil)l1S. Also, aU funds receiVt:d by C OCAI fur Head Slart and Early Head Start Programs
were spent entirely for !-lead Start and Early Head Start Program purposes - with in the grantec's
oHlcial service area and on behalfof, and for the benelits o l~ the enrolled children, their parents,
the gralllee's stafl" and other allowab le and accountable purposes.

Parents discussed and decided that they wanted to do the Birthday Parties and Christmas activities
with their children. Parents and staff provide many olher goods and itelll'! fo r the children and the
items are purchased through set aside funds by ihe gralllees are only a fraction o f the items.

SI. Landry Parish rank among the poorest parishes in the state. 51. Landry Parish Schools
received a D ratillg llcxt to a failing F for educational pcrfomulllec by the ehildrell. To ellSure
schoo l Sllccess and school readiness - C OCA! stair is working with parelllS to ensure active
i.nvolvemelll and participation in school ~lIld classroom activit ies.

Staffis working in partnership with parellls-liulliLies to engage families in their childrell's school
activities and many family engagcmcnt activitics arc plalUlCd together by parents and statIo Somc
dollars must be accessible to carry QUltbese jointly planned tam..ily engagement activities.




                                                 - II ­
                                                                                                      Page 14 of22




The gifts and other items purchased for the children can be used in the cmssrooms. The children
can develop stories about ite ms ~ these items can help literacy skills· word recognition. Story
Lime is otlen aont: by children and parents and ilem~ can be used to td ltheir stories.

EVi.:ry Foocral On-Sile Review CDCAI had gone thro ugh okayed the way that Fcdcrnl funds 8<:1
aside lor parent act ivities wefe used.

CORRECTI\'F. ACTION

\Vrinen Guidance fro m the Dallas Regional OtIlce will be requesterl. Meantime, inIom1.1tion is
being g iven to parents, Board MenDers and Policy Council members for their review and
d iscussion.

Regulat ions req uire that Po licy Council m\L~l approve and/or disappro ve c<:rtain a~"pccls urlhe
program. Board of Directors and slaB"wili work with Policy Cowlcil and parents to readl an
amica ble solutiol1 _

FINA l- COM M ENTS

The Board of Directors and Policy Council will carelhlly review all OIG Auditors'
reco mmcl1datiollS mxi will review Head Start Performallce Standards and other ledcral regula tions
to detenlline what policies and procedures need to be revised andor updated to comply with
Federal rcquiremcllts.

C larifications and guidance will be   rcque~ted   from the Dallas OO;cc of Head StartIRegional
Ollicc _




                                                   - 12 ­
                 Page 15 of22




Attachment 1 

                                                                                                             Page 16 of22




  Sharon
  From:     Campbell, Dean (ACF)
  Sent: 

  To: 

  Cc: 

  Subject: FW: CIlrJ)'-FOIWardlOne Tlme Requests (UPDATE 2)

FYI.

Thanks!

Dean Campbell, Head Start Program Specialist
U.S. DepL of Health & Human Services




From~ Young, Peggy (ACF) 

Sent: Friday, July 27, 2007 5:32 PM 

To: Johnstoo, Susan (ACF); campbel~ Georoe (ACf); Reid, carlton (ACF) 

Cc;: Bishop, Ray (ACF); Drake. Debotah (ACF)i campbell, Dean {ACf}; Chalk. Kinberly (ACF)i Huerta, Alfredo 

(AO'); Ferrell, umonna (ACF); Pruitt, janice (ACF); Helmke, Michelle (ACF); Arredondo, Mike (ACF) 

Subject: Carry-Forward/One Tme Requests (UPDATE 2) 


UPDATE 2
I have !he following carry-rorwaro and/or on(l timo requests pending approval, ple8S8 prtMde guklllllcelupoate as
to funding status/disposition:

·06Cff0382 Dead Start or Greater Dall1l5 (elF $J 10,.546) 

Grantee repans 51,272,560 unobligated balance Final SF269 PY 18. Granlee was authorized one time 

of $392, 128 ofunob[igaled funds from PY 17 to PV 18 for minor renovations and cen ter im provements, 

Recommend grantee make better utilization of existing funds available by requesting budget revisioos as 

conditions and priorities change to eliminate excessive unobligated balances. 

Application meets funding requirements. Recom mend approval . 


..o6CB0439 Child Development of Audit, Inc. (One lime$l50,OOO.PAlO)
Staff computer skills and technology training, mental health Irllining for staff and families, training on
evacuation, resource materials fOl" families, parent training, SII 5,000, computer upgrades S35,000
Recommend approval. Application meets funding requirements.

'"06CH0439 Olild Development of Audit, Iue. (One time $2,700,000)

7/J1!2007
                                                                                                          Page 17 of22

                                                                                                   --0- - ...

Construction of a new central office, current facility is old siore building Bileasl 50 yeaI'! old, leased. 

Facility sustained heavy damage from Hurricane Rita, has asbestos and poses a health risk to staff. 


*06CH043!> C hild Development of Acadia, Inc. (one tim e 52.595,000) 

Renovate 10 Head Start Center playground, resurface and equipment replacement 


*0«:00439 Child Development of Acadia, IDe. (one time SSOW,OOO) 

Purdlase six (65 passenger) buses. Vehicles are need 10 maintain good average dail y attendance. 

Majority offamilies served do nOl own transpMation. 


-06CH6999 Neigbborhood Centen, Inc:. (C/F 5618,067) 

Construction of Alief Facility and to serve 30 Katrina Evacuees. Grantee was awarded $478,750 in FY 

06 to constJUct a faci lity in the Alief Area. 


The funds are still restricted pending an appJiaition. Grantee was notified of application requirements
9/6106 via email but has not submitted an application that meets fundins requirements. Do not
recommend approval until grantte submits appropriate application

-06CH0425 Ca meron Community Action Agency, loc. (C/FSt,76(,162)

Request to cany forward FY07 Hurricane One Time funds (CAN 4122) for code compliant
facil ities/propcny, child restraints, one bus, construction site manager for 2 sites, upgrade playground
area/equipment, office supplies/equipment, and classroom supplies/equipment.

The Grantee e)[.pended $201,28 1 (building repairslland development) of the $1,965,443 awarded last
year. Application requested, The funds were restricted pending an application (912006), application
requested 6/2 1106, application was received 2/13107, grantee budget end is 1128107. Recommend
approval upon receipt of requested information. Grantee operations were destroyed by Hurricane
Katrina AugusI200S.

*06CB04Z5 c.mcron Community Action Agvu:y, Inc. (NFS Waiver COLA $1.719)
Grantee requests a NFS waiver for COI..A, grantee was impacted by Hurricane Katrina.
Recommend approval.

*06CHSlSS CAe, Inc. Of Days, Caldwell and Blanoo Couolies (NFS Waiver S1,500 for Carry­ 

forward) 

 Carty-forward of$10,000 (approvable at Regional Level) that was awarded in previous program year. 


-06CB 7000 Avance, Inc, Bouslon, 1'lI: (C/F $2700500) 

Grantee was awarded $]81,867 (pAll) funds to serve 80 children displaced by hurricane Katrina. 

Grantee requests $270,000 carry-forward to continue services through May 2007. 


-06CH6007 Regina Codi Child Devdopmeollnt. (One time S2,.509.29S) 

Lost the use ofbuilding for Central Tangipahoa HS Center to fire 10106, rented from the Town of 

Independence. Temporarily operating in National Guard Armory. Request to purchase 5 acres 

$125.000, building $ 1,901 ,880. Six classrooms, 120 children. Grantee attests thai no other facilities an: 

7(J112007
                                                                                                               Page 18 0[ 22

                                                                                                  ~...,. .   - --­

available. Nonfederal share waiver requested.

"06<:B6007 Regina Cedi Child Development. Ine. (One time 5994,771) 

To assist in the construction of new facility in Slidd l- Airport Rd (Constructed in 1990 with HS funds) , 

The location is no longer suitable rOf"' Head Start Center. Grantee purchased 3.56 acres to construct 

building with grantee funds (non-Head Start), grantee was awarded $1 ,485,160 (0605) hurricane funds 

10 construct this facility . The estimate now, aftermath of the hurricane, to build the facilily has increased 

$994,77 1. Noofedeml share wavier requested. 


NOTATIONS:

   .on previous repon
        ~




Peggy Young, Financial Operations Specialist
Administnltion for Children and Families




71JJ/2007
                 Page 19 of22




Attachment 2 

                                                                                                                                Page 20 of22

                                                                                                                       , "!I" , ...., , 



Shirley

From: 

Sent:      Thursday. september 01 , 2011 2:21 PM 

To:
Subje<:t: document request
Shirley,

Con we get a copy of the letter from the back about the $976,000 loon agreement
being cancelled or withdrawn:> Also, can we get a copy of the new loon documents'
You can fax them to me ot _                Thank you for your help,




           ;;;;;;;;;;;;;;;;;;;;;;;;;;;';;V;;   ;;;;;;;'i::;;;;;;;;;:,; o . If you ilte oollhe Inlende<l rt(lplent!or h~Y<!
received Ihis email inerror)plea$enotilylhesenderlm"...a...lely and aestroy Ihls emilY. AnV "n ' ~lhorlzed
copyinll, dis(tosure or distrIbution 0111><:> maTerl;Jlln thl!; email i!i mklly rOfbkJd.en.
"The person who says it cannot be done should not interrupt the
person doing it."




6/512012
                 Page 21 of 22




Attachment 3 

                                                                                                                 Page 22 0f22



                                                                                                            '"
                                                    C HASE 0




AUlust !1, l Oll



Chile! Development Coundl of Acadl~na Inc
Attn: Barbar. Pickney 

PO 80)(910 

Opeloutu, LA 70571 


Ref; loan request for $967,000.00

MI.8arbuI,

Plea~ allow this letter to UlNe as vertflCltlOJl that the loan request for $967,000.00 wu approved by
Chue Blnk In October 2009. However, the loin requtJl_S wlthdrtwn InJanulry lOll I nd the,.. wlln
no fund. dllburnd to Child Development COunc1! of Acldltna Inc.

PI,uI fttl free to COllt~ct me should ycu require Iny Iddilionalinformiltion.




~
,,"~roIV' • ~

Je nlte   IlIdeur
 usiness Blnkil'\l
331-265-3591




               J~.,,,,n Chao ....... N	..... • l<J......... rIkIn&. w..mlI,
                                                                    "'.. 0HIa a.. 12ct. I/.Mvmf, LA 7050Z
                                         ToI~        J I7 ~Q ,,.8. ~ U7 26$ ,~,
                                                                                                Page 1 of4

      APPENDIX B: OFFICE OF HEAD START COMMENTS 





                        CHl'li)'REN E't< FAMILIES 

Date:       August 10, 2012


To:          Patricia Wheeler



From;
                         ~ fO":S<~;'"

            ::,:::~~;:;;~':
            Reg;onal      ru
            OfficeofHeadSlnrt               . ...-7 ~

            Ray Bishop. Gr.mt>o      omt;: G-J ,        ----' 

            Office of Grant s Management 


Subject:    Report Number 1\-06· 1 1· 00031

The Office of Inspector General (010). Office of Audit Services. provided the draft audit
report ror Child Development Councit of Acadiana. Inc. (CDCAI). Common Identification
Nwnbcr (C IN) A-06-11..QOO31 \0 th" Depar1ment of H .... ]th and 1·luman Services (DHHS),
Adrn;n;sl.nltion for Children and Families (AeF). Office of Head Start (O l-IS) ror commenlS
on Jul y 1J. 20 12. The aud it report examined expcndilul\:$ under gnmlS !lw-.u dcd to CDCAl,
specifically Grant Numbers 06CH0439 and 06SE 0439. The ten recommendations identified
illihe draft audit report an;: oodl'\lS:jO,)d be low.


Keoom mclld ll tion 1:

The drnfl OIG report requires COCA! to refund $ 1,173,276 in mmllowlIble
construction expenditures ($ 1.155,646) and unnIlownble opcrnling expendi tures
($17.630) to til" Federul Government.

The Offiee of Head Start (Ol-IS) and the Office ofOranl5 Management (OOM ) concur
with tilis recormnend;).tion. OOM also noted tila[ the gruntee·s annual A- 133 Iludit (for
February 1,20 10 through January 31, 20 11 ) questioned the construction costs for this
facility lIS .....ell.
                                                                                                  Page 2 0[4




Page 2 - Patricia Wheeler, Regional Inspector General for Audit Services


Recommendation 2:

The draft OIG report indicated special award conditions are to be imposed to ensure COCA!
maintains a Iinancial management system that is able to provide accurate, current, and complete
disclosure offinancial results and records.

OHS and OGM concur with this recommendation



Recommendation 3:

The draft OlG report requests OHS work with COCA! to identifY any remaining unallowable
construction-related expenditures.

OHS and OGM concur with this recommendation



Recommendation 4:

The draft OlG report requires CDCA[ to file a Notice of Federal [nterest for the central
office building.

OHS and OGM concur with this recommendation.




Recommendation 5:

The draft OlG report stated OHS ensure CDCA! does not use Federal property as collateral for
a future mortgage and that the current audited Iinancial statements disclose that the building
was pledged as security for the loan.

OHS and OGM concur with this recommendation.
                                                                                                  Page 3 0[4




Page 3 - Patricia Wheeler, Regional Inspeclor General for Audit Services



Recommendation 6:

The draft OlG report stated OHS is to work with COCA! to detennine the amount ofany
shortfall in non-Federal share contributions related to the $852,904 in unallowable non-Federal
share and the associated grant funds for which COCA! would not have been eligible.

OHS and OGM concur with this recommendation.




Recommendation 7:

The draft OlG report stated OHS was to ensure that goods, services, and donations that COCA!
claimed as non-Federal share are allowable.

OHS and OOM concur with this recommendation.




Recommendation 8:

The draft OlG report stated that OHS will ensure COCA! values goods, services, and
donations according to applicable requirements.

OHS and OOM concur with this recommendation.




Recommendation 9:

The draft OlG report stated OHS was to ensure COCA! properly documents in-kind
contributions.

OHS and OGM concur with this recommendation.
                                                                                        Page 4 0[4




Page 4 - Patricia Wheeler, Regional Inspector General for Audit Services



Recommendation 10:

The OIG report requests OHS to ensure that eOCAI accounts for Head Start expenditures
accurately and that the expenditures are allowable.

OHS and OGM concur with this reconunendation.



OHS and OGM concur with providing training and technical assistance resources to
eDeAI within 90 days after issuance of the final OIG Report.



Thank you for the opportunity to conunent.
